Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Reimbursement for
     Hospital Beds in the Home

                Prices




                   JUNE GIBBS BROWN
                    Inspector General

                     NOVEMBER 1998
                      OEI-07-96-00221
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City Regional Office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Perry A. Seaton, Team/Project Leader                 Lisa A. Foley, Program Specialist
Tim Dold, Team Leader                                Stuart Wright, Associate Director
                                                     Barbara Tedesco, Mathematical Statistician




  To obtain copies of this report, please call the Kansas City Regional Office at 816/426-3697.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine the reasonableness of Medicare's reimbursement for rental of hospital beds in the
home when compared to other Federal, State, private insurance companies, and managed care
organizations.

BACKGROUND

Medicare authorizes beneficiaries to obtain hospital beds for use in their home. This is done on
the basis of a rental schedule with an option to purchase the bed. Suppliers receive monthly
reimbursement from the Medicare Durable Medical Equipment Regional Carriers based upon a
fee schedule. This schedule is limited by the Health Care Financing Administration’s (HCFA)
established national payment ceilings, and is adjusted annually for inflation based upon the
Consumer Price Index. The rental fee schedule caps the rental payments at 120 percent of the
allowable charge for purchase. In calendar year (CY) 1996, Medicare allowed charges of over
$272 million for the four categories of hospital beds included in this study. Semi-electric beds
(code E0260) comprised 86 percent of this total while total electric beds accounted for less than
one-half of one percent

We surveyed sampled entities from Medicare risk managed care organizations, Medicaid State
Agencies, the top 50 health insurance companies as ranked by policies in force, and a listing of
companies providing national and local coverage in the Federal Employees Health Benefits
program. Overall, we achieved an 82 percent response rate.

This is one of two reports examining Medicare’s policies and reimbursement for hospital bed
equipment. A companion report “Medicare Reimbursement for Hospital Beds in the Home:
Payment Methodology” OEI-07-96-00222 compares Medicare’s rental reimbursement payment
methodologies to those of other medical insurance payers.

FINDING

Medicare Rates for Rental of Hospital Beds for Home Use Are Substantially Higher than
Rates Paid by Most Other Payers

Comparison of Average Monthly Rental Payments for Semi-Electric Beds

Ninety-seven percent of our respondents pay for rental of hospital beds (72 of 74 respondents).
We analyzed the rates for each hospital bed to identify the entities that paid uniform rates for
rental and those that paid variable rates which depend on locale and market competition.

Of the 51 entities furnishing information on both the rental rates and the frequency of these
payments for the four categories of hospital beds included in this inspection, 37 (72.6 percent) use
a uniform monthly rate schedule, and 14 (27.4 percent) pay variable rates.


                                         )))))))))))
                                              i
We found that on average, other payers’ uniform monthly rental rates were more than 14 percent
lower than the corresponding Medicare monthly rate for semi-electric hospital beds. For entities
using a variable rate schedule, their highest rate ranged from 22 percent above to almost
23 percent below the corresponding Medicare average rate for this bed. We found similar results
for manual, manual-adjustable, and total-electric hospital beds.

Comparison of Actual Monthly Rental Rates for Semi-Electric Beds

Since Medicare, unlike other entities, pays an enhanced rate for the first 3 months of rental, we
also compared their actual rate for months 1 - 3 and months 4 - 15 to the rates of other entities.
We found Medicare’s rates for months 1 - 3 were from 18 percent to 38 percent higher, and for
months 4 - 15 were from 9 percent lower to 18 percent higher.

Maximum Potential Rental Payments

We compared Medicare’s rental payments for a semi-electric hospital bed during the maximum
potential rental period of 15 months to other payers’ maximum rental payments. We found
entities paying a uniform rate were on average over 30 percent lower than Medicare’s maximum
payments. Also, entities who predominately reimburse from their highest variable rate schedule
were on average 30 percent lower. Those payers primarily paying from their lowest rate schedule
were on average 43 percent lower. Similar results were obtained for manual, manual-adjustable
and total-electric hospital beds.

RECOMMENDATION

HCFA Should Take Immediate Steps to Reduce Medicare Payments for In-Home Hospital
Beds

Medicare’s monthly rates for the four types of hospital beds studied, when considered with total
rental payments during the 15 month extended rental period, exceed the rates of other payers by
more than 14 percent. The Balanced Budget Act of 1997 provides HCFA with the necessary
tools to immediately reduce rates if there is compelling evidence that their rates exceed those
generally being paid in the marketplace. We believe that this is the case here. If this authority is
exercised for the four types of hospital beds surveyed, we estimate that annual savings at a
12 - 15 percent reduction would be approximately $32.7 to $40.9 million. Projected over
5 years, Medicare would save over $163 to $204 million.

We also believe that the payment method used by Medicare inappropriately overcompensates for
rental use during the first 3 months of each rental period. We discuss this more thoroughly in our
companion report, “Medicare Reimbursement for Hospital Beds in the Home: Payment
Methodology” OEI-07-96-00222. In that report we include a recommendation that HCFA seek
legislation to correct that aspect of the problem. Overall, we believe that a combination of both
approaches would be best. However, the savings would not be additive.




                                          )))))))))))
                                               ii
AGENCY COMMENTS

The HCFA concurs with the intent of our recommendation and is undertaking a comparison of
hospital bed rates and a competitive bidding demonstration project as a prelude to making hospital
bed rate changes. Appendix F contains the complete text of these comments. We remain
available to provide technical assistance to HCFA on this matter.




                                        )))))))))))
                                             iii
                              TABLE OF CONTENTS

                                                                                                                                 PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Medicare’s Rates for Hospital Beds Exceed Most Other Payers . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES

 A: Entities Included In the Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


 B: Sample Response Rate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


 C: Medicare’s Rental Rates to Reimbursement Compared to Other Payers . . . . . . . . . . . . . . C-1


 D: Duration of Hospital Bed Rental . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


 E: Calculation of Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1


 F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-1

                            INTRODUCTION

PURPOSE

To determine the reasonableness of Medicare's reimbursement for rental of hospital beds in the
home when compared to other Federal, State, private insurance companies, and managed care
organizations.

BACKGROUND

The Medicare Supplemental Medical Insurance program pays for the rental or purchase of
medically necessary Durable Medical Equipment (DME) used in a beneficiary’s home when
determined by a physician to be medically required. Certain categories of DME, including
hospital beds, are reimbursed as “capped rental” items.

Medicare Reimbursement Methodology for Hospital Beds

Under Medicare capped rental DME rules, a hospital bed is initially furnished to a beneficiary as a
rental item. At the 10th month, the beneficiary is offered the option of purchasing a new or used
bed, which is effective with the 14th month. If the beneficiary elects to continue to rent the bed,
Medicare payments will end upon completion of the 15th month. After rental payments end,
Medicare will pay for necessary servicing and maintenance of capped rental equipment once every
6 months (which cannot exceed the charge for a 1 month rental). When the hospital bed is no
longer needed by the beneficiary (due to death or medical improvement) the supplier is free to
reclaim the used item for rental or sale to other clients.

Suppliers receive monthly reimbursement from the Medicare Durable Medical Equipment
Regional Carriers (DMERC) under a fee schedule. This schedule is limited by the Health Care
Financing Administration’s (HCFA) established national payment ceilings, and is adjusted annually
for inflation based upon the Consumer Price Index. The fee schedules reimburse a supplier:

       C	      10 percent of the average of allowed purchase price on assigned claims for new
               equipment for each of the first 3 months of rental, and

       C        7.5 percent of the average of allowed price for new equipment, for each of the
               remaining months not to exceed 12 additional months of continuous use.

Each month's rental applies toward the purchase price if the beneficiary elects this option, or
applies to the 15 month maximum rental cap. Table 1 is a summary of the Medicare fee schedule.
Medicare allows 105 percent for a purchased item or 120 percent if rented through the 15th
month.




                                         )))))))))))
                                              1
                                                   Table 1
                         Medicare Reimbursement Schedule for Hospital Beds
            Rental Month              Percent of Purchase Price           Cumulative Percent
                    1                             10.0%                           10.0%
                    2                             10.0%                           20.0%
                    3                             10.0%                           30.0%
                    4                              7.5%                           37.5%
                    5                              7.5%                           45.0%
                    6                              7.5%                           52.5%
                    7                              7.5%                           60.0%
                    8                              7.5%                           67.5%
                    9                              7.5%                           75.0%
                   10                              7.5%                           82.5%
                   11                              7.5%                           90.0%
                   12                              7.5%                           97.5%
                      1
                   13                              7.5%                           105.0%
                   14                              7.5%                           112.5%
                      2
                   15                              7.5%                           120.0%
        1
            If elected, the purchase option is effective upon completion of the 13th rental month.
        2
            Rental payments terminate upon completion of the 15th rental month.

In calendar year (CY) 1996 the DMERCs allowed charges of over $272 million for the four
categories of hospital beds included in this study. Semi-electric beds (code E0260) comprised
86 percent of this total while total electric beds accounted for less than one-half of one percent
(refer to Table 2).

                                               Table 2

                                 Allowed Charges for Hospital Beds

                                January 1, 1996 - December 31, 1996 1

 Manual Hospital Bed (E0250)                                                              $7,085,989
 Manual Adjustable Hospital Bed (E0255)                                                 $30,720,446
 Semi-Electric Hospital Bed (E0260)                                                    $233,607,390
 Total Electric Hospital Bed (E0265)                                                      $1,084,068
 Total:                                                                                $272,497,893
 1
     Source: Statistical Analysis DMERC (Palmetto Government Benefits Administrators)




                                             )))))))))))
                                                  2
Related Studies

General Accounting Office

A July 1992 General Accounting Office (GAO) Report, “Medicare, Program, and Beneficiary
Costs Under Durable Medical Equipment Fee Schedules,” HRD-92-78, identified the greatest
increase in program costs and beneficiary liability as “capped rental” items that were purchased
under the reasonable charge system, but rented under the fee schedule. The GAO noted that the
Omnibus Budget Reconciliation Act (OBRA) 1990 made changes to OBRA 1987 which
established national capped payment ceilings and floors for “capped rental” items, added a
beneficiary purchase option in the 10th rental month (which is effective with the 14th month), and
reduced the overall supplier reimbursement from 150 percent to 120 percent for equipment rented
for the entire 15 month “capped rental” period.

The GAO also concluded that OBRA 1990, when fully implemented, would offset the increased
program costs that occurred under OBRA 1987, and would substantially reduce the variability in
rates among the carriers for the same or similar items. They estimated that Medicare program
costs will be essentially the same under OBRA 1990 as they would have been under the
reasonable charge system that the fee schedules replaced.

HHS/Office of Inspector General (OIG)

A May 1993 OIG report, “Review of Medicare Part B Reimbursement of Hospital Beds,”
A-06-91-00080, found that Medicare reimbursement rates for “capped rental” hospital beds were
excessive because HCFA failed to take into account the useful life of the bed and how many times
it can be rented. The OIG estimated Medicare savings of $6.2 to $7.8 million in just one State.
HCFA did not accept OIG's recommendations to change the way they reimburse for hospital beds
in part because the study was limited to rentals in only one State.

Health Care Financing Administration

Public Law 103-432 § 135(c) [the 1994 Amendments to the Social Security Act] mandated that
HCFA study variations in DME suppliers' product and service costs. HCFA contracted with Jing
Xing Health and Safety Resources of Annandale, VA to complete this project. The report,
“Durable Medical Equipment Supplier Product and Service Cost Study,” was released to
Congress in February 1997. The report stated that “. . . the construction of a geographic payment
index for DME will present a very difficult challenge to HCFA because of 1) the inability of DME
suppliers to readily provide the kinds of item-specific cost data normally used by HCFA in
developing geographic indices, 2) the lack of data and standardization on cost shares by product
type, and 3) the likely objections that would be raised by any methodology that estimates cost
shares and geographic variation using proxy data.”

In response to the report, HCFA stated its belief that Medicare frequently pays too much for
durable medical equipment and believes that competitive bidding, which is used by the


                                         )))))))))))
                                              3
Department of Veterans' Affairs (VA) and other Federal, State and private health care purchasers,
would ensure that reliable market prices are paid for these items. HCFA further cited its
“Competitive Bid Demonstration” as a source for addressing congressional concerns. This
involves a demonstration to test whether competitive bid pricing can be used to purchase some
DME and supplies for Medicare beneficiaries. Hospital beds are included as one of the
competitive bid items. There will be a total of three metropolitan demonstration sites in the
southeast and southwest United States. The demonstration proposal, which is administered by
Palmetto Government Benefits Administrators (a DMERC), is in clearance with the Office of
Management and Budget. HCFA initially estimated that one of the three demonstration sites
would be operational by the Spring of 1998. However, they now estimate that the study will not
begin until later in the year.

A second HCFA project involves a study of the “inherent reasonableness” of Medicare payments
for DME and supplies. HCFA awarded this contract to AFYA, Inc. of Adelphi, MD in November
1995, and specified analysis of 100 DME items, including hospital beds. The AFYA report has
been completed, and HCFA plans to release the report information to the DMERCs for
comparison against the current reimbursement rate structure.

Congressional Study

Senator Harkin (D-IA) released a staff report, “Medicare Payments for Medical Equipment and
Supplies,” July 1996, in which his staff analyzed 18 durable medical equipment items, including
hospital beds. They compared Medicare payments for purchase and rental of these items against
the payments made by the Department of Veteran's Affairs (VA) Medical Center in Iowa City, IA.
In addition, they compared Medicare's payments against wholesale and retail prices for these
items advertised through medical equipment and supply catalogs. They found Medicare rental
payments for DME and supplies to be excessive when compared to VA and wholesale payments.
They estimated that by adopting the advertised wholesale price as the maximum payment amount,
the Medicare program would save 40 percent, or over $82 million annually. If Medicare paid the
VA price for the bed, they estimated the Medicare program would save 37 percent, or over $75
million annually.

Recent Legislation Impacting HCFA’s Ability to Adjust Payments

As part of the Balanced Budget Act of 1997, Public Law 105-33, [42 U.S.C. § 1395u(b)],
Congress enacted provisions which provide HCFA greater flexibility in determining the
appropriate rate of reimbursement for items and services when rates are found to be grossly
excessive, deficient, or not inherently reasonable. This law allows HCFA to increase or decrease
rates, without publishing Federal Register notices, up to 15 percent annually if “the payment
amount for an item or service under this part is substantially higher or lower than the payment
made for the item or service by other purchasers.”




                                        )))))))))))
                                             4
If HCFA determines that rates need to be adjusted by more than 15 percent annually, then it must,
through the rule making process, consult with suppliers or other individuals furnishing the
services, and publish the proposed revised rates in the Federal Register. Section 4316 (a) of the
Balanced Budget Act amended § 1842 (b)(8)(C) of the Social Security Act to require the
Secretary to consider the following factors in making “inherent reasonableness” determinations:

       C	      Medicare and Medicaid are the sole or primary sources of payment for a category
               of items or services;

       C	      the payment amounts for a category of items or services do not reflect changing
               technology or changes in acquisition, production or supplier costs;

       C	      the payment amounts are grossly higher or lower than the payments made for the
               same category of items or services by other purchasers in the same locality; and

       C	      other factors as determined by the Secretary to be appropriate [these factors are
               defined in Code of Federal Regulations Title 42 CFR § 405.502 (g)(1)].

On January 7, 1998, HCFA published an interim final rule in the Federal Register implementing
the provisions of the Balanced Budget Act. This rule specified additional factors the Secretary
considers to be appropriate in making “inherent reasonableness” determinations. The resulting
factors include, but are not limited to, a determination that the Medicare program is paying
excessive rates because:

       C       the marketplace is not competitive;
       C       the payment amounts in a particular locality grossly exceed amounts paid in other
               localities for the same category of items or services;
       C       the payment amounts grossly exceed acquisition or production costs for the
               category of items or services; and
       C       there have been increases in payment amounts that cannot be explained by inflation
               or technology.

METHODOLOGY

We researched the Federal laws, regulations and HCFA policies that cover the establishment,
reimbursement, and purchase options for capped rental hospital beds. We also reviewed various
private and governmental entities’ reimbursement methodologies for these items.

We obtained listings of Medicare risk managed care organizations (MCOs) with 450 or more
members, Medicaid State agencies, the top 50 private health insurance companies in the United
States as ranked by number of policies in force, and a listing of the companies providing national
and local coverage through the Federal Employees Health Benefits Program (FEHB). We
selected a judgmental sample from each of these groups, and requested them to complete a mailed
survey questionnaire. For the sampled private insurance companies with multiple components, we
surveyed their private, MCO, and government insurance divisions. In total, we contacted 90
entities.



                                         )))))))))))
                                              5
As a means to obtain direct information and validate it, we selected a sub-sample from each of the
above organizations for on-site visits. The criteria for selection was based upon size, location,
and proximity to other on-site contacts for economy of travel. In addition, we sent surveys to the
VA, the Indian Health Service, and the Department of Defense Tri-Care program, formerly the
Office of Civilian Health and Medical Program of the Uniform Services (CHAMPUS). As part of
all surveys, we requested the entities' written policies for reimbursement methods, schedules, and
rates for the following types of new and used hospital beds:

       C       Manual Hospital Bed                   (HCPCS Code E0250)
       C       Manual Adjustable Hospital Bed        (HCPCS Code E0255)
       C       Semi-Electric Hospital Bed            (HCPCS Code E0260)
       C       Total Electric Hospital Bed           (HCPCS Code E0265)

We inquired if these purchasers of hospital beds maintain ongoing data or have conducted studies
to address supplier expenses for acquisition, delivery, setup, patient education, maintenance, tear
down, pick up, sanitation, billing, or supplier profit. We also asked if they are utilizing
competitive bidding for either the rental or purchase of these items. In addition, we asked them to
provide both their lowest and highest payment rates for each of the beds included in this study and
an estimate for the percentage of time these rates were paid. Any unclear responses were clarified
by telephone and follow up contacts made to non-responders. Overall we achieved an 82 percent
response rate. Appendix A breaks out the various entities surveyed and identifies responders by
sample category. It should be noted that because not all responders provided answers to each
question on the survey instrument, we reported our data based on the percentage of responders
who answered the question. Appendix B lists the response rates for each of the sample
categories.

These rates were then grouped by type of respondent and compared to the corresponding
Medicare rental rates. Since the Medicare program pays a higher rate during the first three
months of rental, we performed three comparative analyses. First, we totaled the Medicare rate
for the entire 15 month maximum rental period and divided the result by 15 to determine
Medicare’s monthly average rate. This average was then compared to other entities’ rental rates.
Second, we compared Medicare’s enhanced rental rate for months 1 - 3 and their lower rate paid
for months 4 - 15 to the corresponding rates for other entities. Lastly, we compared the
maximum Medicare rates for a 15 month rental to the maximum rental payments of the other
entities.

This is a companion report to “Medicare Reimbursement for Hospital Beds in the Home:
Payment Methodology” OEI-07-96-00222, which compares Medicare rental reimbursement
methodology for hospital beds used in the home to policies utilized by other Federal, State,
private insurance companies, and managed care organizations.

We conducted our review in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                         )))))))))))
                                              6
                                      FINDING

MEDICARE RATES FOR RENTAL OF HOSPITAL BEDS FOR HOME
USE ARE SUBSTANTIALLY HIGHER THAN RATES PAID BY MOST
OTHER PAYERS

We found that Medicare’s rate and method of payment differed from the other entities. Medicare
has a two tier rate structure, an enhanced rate which is paid in the first 3 months of rental, and a
lower rate that is paid for months 4 - 15 of the rental period. All other entities we surveyed paid a
uniform rate. Therefore, to obtain a clearer perspective of this difference, we compared
Medicare’s average monthly payment to rates of other entities and then compared Medicare’s
actual payment amounts for both the enhanced rate for the first 3 months of rental, and months
4 - 15 to other entities rental rates.

We found that semi-electric beds accounted for over 85 percent of the CY 1996 Medicare
allowable charges for the four categories of beds included in this study (refer to Table 2). The
variance in semi-electric payment rates between Medicare and other payers is consistent with the
other three hospital bed codes. Therefore, for this report, we decided to focus on the comparison
of only the semi-electric bed rates. However, a complete comparison of four bed categories is
contained in Appendix C.

Comparison of Average Monthly Rental Payments for Semi-Electric Beds

Ninety-seven percent of our respondents pay for rental of hospital beds (72 of 74 respondents).
We analyzed the rates for each hospital bed by type of respondent to identify the entities that paid
uniform rates for rental, and those that paid variable rates which depend on locale and market
competition. Of the 51 entities furnishing both the rental rates and the frequency of these
payments, 37 (72.6 percent) use a uniform monthly rate schedule and 14 (27.4 percent) pay
variable rates.

We found on average, other payers’ uniform monthly rental rates were more than 14 percent
lower than the corresponding Medicare monthly average rate for semi-electric beds. For entities
using a variable rate schedule, their highest rates ranged from 22 percent above to almost
23 percent below the corresponding Medicare average rate for this bed (refer to Table 3 for
information on the percent of respondents paying at the variable “high” and “low” rates).




                                          )))))))))))
                                               7
                                                  Table 3
                             Medicare’s Monthly Average Rental Rate
                            For Semi-Electric Hospital Beds Compared
                                    to Rates of Other Payers
                                                              Percent of              Percent Rate
                                                            Respondents          is Above or Below
 Type of Rate Paid                                          Paying Rate            Medicare’s Rate
 Uniform                                                          72.6%                      -14.1%
 Variable “High”                                                  15.7%                       22.0%
 Variable “Low”                                                    5.9%                      -22.7%
 Pay neither “High” or “Low” Variable rate                         5.9%                Not Obtained


Comparison of Medicare’s Monthly Rental Rates for Semi-Electric Beds to Other Payers

Since Medicare, unlike other entities, pays an enhanced rate for the first 3 months of rental, we
also compared their actual rate for months 1 - 3 and months 4 - 15 to other entities’ rates for the
same periods. We found Medicare’s rates for months 1 - 3 were from 18 percent to 38 percent
higher and for months 4 - 15 were from 9 percent lower to 18 percent higher, the 9 percent
representing the variable “high” rate paid by some entities (Table 4).

                                                  Table 4
                                 Medicare’s Actual Rental Rates for
                                   Months 1 - 3 and Months 4-15
                                 Compared to Rates of Other Entities
                        Mean                                       Mean          Mean
                     Medicare           Mean         Percent    Medicare         Other       Percent
                       Rental           Other      Difference     Rental       Entities’   Difference
 Type of                Rate          Entities’        Over /       Rate    Rental Rate        Over /
 Rental Rate            1-3       Rental Rate          Under       4 - 15        4 - 15        Under
 Compared             Months     1 - 3 Months      Medicare      Months        Months      Medicare
 Uniform             $153.74 1        $105.47         -31.3%     $115.31        $105.47        -8.4%
 Variable High       $153.42 2        $125.61         -18.2%     $115.07        $125.61         9.0%
 Variable Low        $153.42 2         $94.83         -38.1%     $115.07         $94.83       -17.5%




       1
            This is the mean Medicare rental rate for the 37 providers who paid a uniform rate.
       2	
            This is the mean Medicare rental rate for the 14 providers who pay either a high or
            low variable rate.

                                            )))))))))))
                                                 8
The difference in Medicare payment rates and those of other entities is significant, particularly
since almost one-half (47 percent) of hospital bed rentals are 3 months or less in duration (Refer
to Appendix D for Analysis of Duration of Hospital Bed Rental).

Maximum Potential Rental Payments

We reviewed the limits under which Medicare and the surveyed insurers paid for rentals, as this is
an important factor in determining the total rental payment amount. For Medicare, the maximum
reimbursable continuous rental period is 15 months. For entities paying a uniform rate, their
maximum payments averaged over 30 percent lower than Medicare’s maximum payments. Also,
entities which predominately reimburse from their highest variable rate schedule also averaged 30
percent lower. Those payers primarily reimbursing from their lowest rate schedule were on
average 43 percent lower (refer to Table 5).

                                              Table 5

                           Medicare’s Maximum Rental Reimbursement
                           For Semi-Electric Hospital Beds Compared to
                            Maximum Reimbursement of Other Payers

                                                                               Percent Maximum
                                                                                  Reimbursement
                                                           Percent of
         is Above or Below
                                                         Respondents
        Medicare’s Maximum
 Type of Rate Paid                                       Paying Rate
             Reimbursement
 Uniform                                                       72.6%                       -30.9%
 Variable “High”                                               15.7%                       -30.0%

 Variable “Low”                                                 5.9%                       -43.4%
 Predominately pay neither “High” or “Low”                      5.9%                  Not Obtained
 Variable rate

Similar results were obtained for manual, manual-adjustable and total-electric hospital beds.
Refer to Appendix C for detailed information.

The great deviation in maximum potential payment amounts is due mainly to different payment
policies between these entities and the Medicare program. We found that 60 percent of other
payers end reimbursement when the total rental payments equal the amount the company would
pay for outright purchase of the item. Conversely, the Medicare program allows aggregate rental
payments to a maximum of 120 percent of the purchase price if the bed is rented for 15 months.




                                         )))))))))))
                                              9
                         RECOMMENDATION

HCFA Should Take Immediate Steps to Reduce Medicare Payments for
In-Home Hospital Beds
Federal law, regulations and Medicare policy provide that HCFA may adjust supplier
reimbursement when found to be unreasonable and not comparable to rates paid in the
marketplace. We have demonstrated through the survey of private and governmental payers’
comparative rates that HCFA is paying too much for hospital beds. We believe that HCFA can
achieve significant program savings by modifying its reimbursement policies for capped rental
hospital beds to be comparable to what other insurers are paying.

Use the Newly Enacted Authority to Make an Immediate 12 to 15 Percent Reduction

Medicare’s monthly rates for the four types of hospital beds studied, when considered with total
rental payments during the 15 month extended rental period, exceed the rates of other payers by
more than 14 percent. The Balanced Budget Act of 1997 provides HCFA with the necessary
tools to immediately reduce rates if there is compelling evidence that their rates exceed those
generally being paid in the marketplace. We believe that this is the case here. If this authority is
exercised for the four types of hospital beds surveyed, we estimate that annual savings at a
12 - 15 percent reduction would be approximately $32.7 to $40.9 million. Projected over
5 years, Medicare would save over $163 to $204 million. 3 Our savings calculations are described
in detail in Appendix E.

We also believe that the payment method used by Medicare inappropriately overcompensates for
rental use during the first 3 months of each rental period. We discuss this more thoroughly in our
companion report, “Medicare Reimbursement for Hospital Beds in the Home: Payment
Methodology” OEI-07-96-00222. In that report we include a recommendation that HCFA seek
legislation to correct that aspect of the problem. Overall, we believe that a combination of both
approaches would be best. However, the savings would not be additive.

AGENCY COMMENTS

The HCFA concurs with the intent of our recommendation and is undertaking a comparison of
hospital bed rates and a competitive bidding demonstration project as a prelude to making hospital
bed rate changes. Appendix F contains the complete text of these comments. We remain
available to provide technical assistance to HCFA on this matter.




       3	
            These savings estimates are based on calendar year 1996 payments and are not indexed
            for inflation.

                                          )))))))))))
                                               10
                                          APPENDIX A


              ENTITIES INCLUDED IN THE SAMPLE

                                  PRIVATE INDEMNITY COMPANIES


Name                                                                  State      Response Received
Aetna Life and Casualty Co                                             CT                  Y
Blue Cross & Blue Shield of Florida                                    FL                  Y
Blue Cross & Blue Shield of Michigan                                   MI                  Y
Blue Cross & Blue Shield of Texas, Inc.                                TX                  Y
Empire Blue Cross Blue Shield                                          NY                  N
Metropolitan Life Insurance Company                                    FL     Dropped (sold to United
                                                                              Health Care)
Mutual of Omaha                                                       NE                   Y
New York Life Insurance Company                                       NE                   Y
Prudential Insurance Company of America                               PA                   N
United Health Care (formerly Travelers)                               CT                   Y
Total Companies: 10                                                  Total Responders: 7

                                     MEDICAID STATE AGENCIES

Name                                                                  State        Response Received
                                              1
Arizona Health Care Cost Containment System                            AZ                  Y2
                               1

Department of Human Services                                           HI                  Y
Department of Human Services
                                          ID                  Y
Department of Health & Mental Hygiene
                                 MD                  Y
Division of Medicaid
                                                  MS                  Y
Department of Human Services
                                          ND                  Y
New Mexico Human Services Department
                                  NM                  Y
Department of Social Services
                                         NY                  Y
Department of Human Services 1
                                        OH                  Y
Department of Human Services
                                          WI                  Y
Total States: 10
                                                    Total Responders: 10
1
  Medicaid § 1115 Waiver State

2
  The Arizona Health Care Cost Containment System (the Medicaid State Agency) has seven subcontractors
who provide Medicaid Coverage. Ventana Health Systems, provided the only response. This contractor
furnishes Medicaid health care to 7 of 15 Arizona Counties.




                                           )))))))))))
                                               A-1
                FEDERAL EMPLOYEE HEALTH BENEFITS PROGRAM--LOCAL PLANS


Name                                                                           State     Response Received
Foundation Health                                                               CA                 Y
CIGNA Healthcare of Colorado                                                    CO                 N
Health New England                                                              CT                 N
Suburban Health Plan, Inc.                                                      CT                 Y
Exclusive Health Care                                                           IA                 Y
BCI HMO, Inc                                                                    IL                 Y
Personal Care Blue Shield HMO                                                   IL                 Y
Advantage Care, Inc.                                                            KY     Dropped--No longer
                                                                                       participating in FEHB
                                                                                       Plans.
HMO Maine                                                                      ME                  Y
AETNA Health Plans of the Mid-Atlantic States                                  MD                  Y
Health Alliance                                                                MI                  N
Prudential Health Care HMO                                                     MO                  N
United Health Care Select                                                      MO                  Y
Exclusive Health Care                                                          NE                  Y
FHP New Mexico                                                                 NM                  Y
Presbyterian Health Plan                                                       NM                  N
GHI Health Plan                                                                NY                  Y
Healthsource HMO of New York                                                   NY                  Y
Independent Health Association                                                 NY                  Y
Personal Care Plan of North Carolina                                           NC                  Y
PHP, Inc.                                                                      NC                  Y
HMO Health Ohio                                                                OH      Dropped--No longer
                                                                                       participating in FEHB
                                                                                       Plans.
Prudential Northern Ohio                                                       OH                  Y
Pacific Care of Oregon                                                         OR                  N
United Health Plans of New England                                              RI                 Y
Harris Methodist                                                               TX                  Y
HMO Blue                                                                       TX                  Y
Total Companies Contacted: 25 3                                               Total Responders: 19

3
    Total does not include the two companies that no longer participate in the Federal Employees Health
    Benefits Program.




                                                )))))))))))
                                                    A-2
           FEDERAL EMPLOYEE HEALTH BENEFITS PROGRAM--NATIONAL PLANS


Name                                                          Response Received
Alliance
                                                             Y
American Postal Workers Union (APWU)
                                 Y
Blue Cross & Blue Shield
                                             Y
Government Employees Hospital Association (GEHA)
                     Y
Mail Handlers
                                                        Y
National Association of Letter Carriers (NALC)
                       Y
Postmasters
                                                          Y
Association Benefit Plan
                                             Y
BACE
                                                                 Y
Foreign Service
                                                      N
Panama Canal Area
                                                    Y
Rural Carrier Benefit Plan
                                           Y
Special Agents’ Mutual Benefit Association (SAMBA)
                   Y
Secret Service
                                                       N
Total Companies: 14                                      Total Responders: 12




                                           )))))))))))
                                               A-3
                   MEDICARE RISK HEALTH MAINTENANCE ORGANIZATIONS


Name                                                         State      Response Received
Health Partners of Alabama
                                   AL                 Y
Blue Cross of Arizona
                                        AZ                 Y
Blue Cross of California
                                     CA                 N
FHP, Inc.
                                                    CA                 N
Foundation Health, A California Plan
                         CA                 Y
Kaiser Foundation HP, Inc.
                                   CA                 Y
Kaiser Foundation HP of Colorado
                             CO                 Y
Kaiser Foundation HP of NY
                                   CT                 Y
AV-Med Health Plan, Inc.
                                     FL                 Y
U.S. Healthcare Delaware
                                     DL                 Y
Health Alliance Plan of Michigan
                             MI                 N
Partners National Health Plans of North Carolina, Inc.        NC                 Y
First Option Health Plan of New Jersey, Inc.
                 NJ                 Y
CIGNA Healthcare of New York
                                 NY                 Y
Independent Health Plan, Inc
                                 NY                 N
NYLCARE Health Plans, Inc.
                                   NY                 Y
Family Health Plan, Inc.
                                     OH                 Y
Community Care HMO, Inc.
                                     OK                 Y
Kaiser Foundation of the Northwest
                           OR                 Y
Geisinger Health Plan
                                        PA                 Y
Keystone Health Plan Central, Inc.
                           PA                 Y
Qualmed Plans for Health, Inc.
                               PA                 Y
U.S. Healthcare, Inc. - Delaware 
                            PA                 Y
U.S. Healthcare Systems of Pennsylvania
                      PA                 Y
IHC Care, Inc.
                                               UT                 Y
Total Companies: 25                                         Total Responders: 21




                                              )))))))))))
                                                  A-4
              OTHER FEDERAL GOVERNMENT HEALTH INSURANCE PROGRAMS

Name                                                                             Response Received
Indian Health Service (Department of Health & Human Services                             Y
Tri-Care (Department of Defense) 4                                                       Y
Railroad Retirement Board (RRB)                                                       Dropped 5
Department of Veteran’s Affairs (VA)                                                     Y
Total Government Programs in Sample: 6 4                                    Total Responders: 5 4

4	
        Tri-Care (formerly CHAMPUS) contracts with several insurance companies to administer the rate and
        method of reimbursement for claims filed under their program. Three of these contractors responded
        to our survey. Each was coded as a separate response, since payment rates are State specific.
        Comparisons were performed against Medicare’s rates for those States.
5	
        We dropped the Railroad Retirement Board (RRB) from the sample. Contact with them confirmed that
        retirees’ health claims are covered by Medicare and are processed by the DME Regional Carriers
        (DMERCS). Therefore, HCFA policies for payment are followed and the reimbursement rates are the
        same as for non RRB Medicare clients.




                                            )))))))))))
                                                A-5
                                APPENDIX B


                        SAMPLE RESPONSE RATE

                                       Number in           Number
Type of Health Insurer                  Sample            Responding       Response Rate
Private Indemnity Insurance                10                  7                70%
Medicaid State Agencies                    10                 101              100%1
Federal Employee Local
Insurance Plans                            25                  19               76%
Federal Employee National
Insurance Plans                            14                  12               86%
Medicare Risk Health
Maintenance Plans                          25                  21               84%
Other Government Health
Insurers                                    6                  5                83%
Total:                                     90                  74               82%
1
    The Arizona Health Care Cost Containment System (the Medicaid State Agency) has
    seven subcontractors who provide Medicaid Coverage. Ventana Health Systems,
    provided the only response. This contractor furnishes Medicaid health care to
    7 of 15 Arizona Counties.




                                       )))))))))))
                                           B-1
   APPENDIX C


     MEDICARE’S 

MONTHLY AND MAXIMUM

RENTAL REIMBURSEMENT

  FOR HOSPITAL BEDS
    COMPARED TO
  REIMBURSEMENT BY
    OTHER PAYERS




       )))))))))))
           C-1
                        MEDICARE’S MONTHLY AND MAXIMUM RENTAL REIMBURSEMENT FOR HOSPITAL BEDS

                                      COMPARED TO REIMBURSEMENT BY OTHER PAYERS

                                             Manual Non-Adjustable Hospital Bed (HCPCS Code: E0250)
                                                                                     Percent MONTHLY                                   Percent MAXIMUM
                                        Number of               Percent of                Rental Rate is                                  Rental Payments
                                      Respondents             Respondents                Above or Below                                  is Above or Below
Type of Rate Paid                     Paying Rate              Paying Rate               Medicare’s Rate                                   Medicare’s Rate
Uniform                                        36                  73.47%                         -9.9%                                            -34.4%
Variable “High”                                 8                  16.33%                           15%                                            -26.0%
Variable “Low”                                  3                   6.12%                        -31.8%                                            -46.7%
Pay neither “High” or                           2                   4.08%                  Not Obtained                                       Not Obtained
“Low” Rate

Total: (66.2% of total                           49                        100%                     Not Obtained                             Not Obtained
respondents) 1
1
  There were a total of 74 responders to the survey questionnaire. However, 25 are not included in the calculations above because:
        15 (20.3% of total respondents) did not respond or could not provide either the rate or the frequency that the rate was paid
        10 (13.5% of total respondents) did not cover this item for rental reimbursement.

                                             Manual-Adjustable Hospital Bed (HCPCS Code: E0255)
                                                                                   Percent MONTHLY                                     Percent MAXIMUM
                          Number of Respondents                Percent of                Rental Rate is                                   Rental Payments
                                    Paying Rate             Respondents                Above or Below                                    is Above or Below
Type of Rate Paid                                            Paying Rate               Medicare’s Rate                                     Medicare’s Rate
Uniform                                      38                  73.08%                         -10.8%                                             -30.6%
Variable “High”                              10                  19.23%                          -4.6%                                             -39.3%
Variable “Low”                                3                   5.77%                         -39.9%                                             -56.0%
Pay neither “High” or                         1                   1.92%                   Not Obtained                                        Not Obtained
“Low” Rate

Total: (70.2% of total                            52                        100%                     Not Obtained                            Not Obtained
respondents) 2
2
  There were a total of 74 responders to the survey questionnaire. However, 22 are not included in the calculation above because:
         17 (23% of total respondents) did not respond or could not provide either the rate or the frequency that the rate was paid
         5 (6.8% of total respondents) did not cover this item for rental reimbursement.




                                                                     )))))))))))
                                                                           C-2
                        MEDICARE’S MONTHLY AND MAXIMUM RENTAL REIMBURSEMENT FOR HOSPITAL BEDS

                                      COMPARED TO REIMBURSEMENT BY OTHER PAYERS


                                                Semi-Electric Hospital Bed (HCPCS Code: E0260)
                                                                                    Percent MONTHLY                                    Percent MAXIMUM

                          Number of Respondents                  Percent of               Rental Rate is                                  Rental Payments

                                    Paying Rate                Respondents               Above or Below                                  is Above or Below

Type of Rate Paid                                              Paying Rate               Medicare’s Rate                                   Medicare’s Rate

Uniform                                      37                    72.55%                        -14.1%                                            -30.9%
Variable “High”                               8                    15.69%                           22%                                            -30.0%
Variable “Low”                                3                     5.88%                        -22.7%                                            -43.4%
Pay neither “High” or                         3                     5.88%                  Not Obtained                                       Not Obtained
“Low” Rate
                                                  51                        100%                     Not Obtained                            Not Obtained
Total: (68.9% of total
respondents) 3
3
  There were a total of 74 responders to the survey questionnaire. However, 23 are not included in the calculations above because:
         17 (23% of total respondents) did not respond or could not provide either the rate or the frequency that the rate was paid
         6 (8.1% of total respondents) did not cover this item for rental reimbursement.

                                                Total Electric Hospital Bed (HCPCS Code: E0265)
                                                                                     Percent MONTHLY                                   Percent MAXIMUM
                          Number of Respondents                  Percent of                Rental Rate is                                 Rental Payments
                                    Paying Rate                Respondents                Above or Below                                 is Above or Below
Type of Rate Paid                                               Paying Rate               Medicare’s Rate                                  Medicare’s Rate
Uniform                                      36                     70.59%                          -16%                                           -30.9%
Variable “High”                               8                     15.69%                          7.6%                                           -27.7%
Variable “Low”                                4                      7.84%                        -27.8%                                           -46.0%
Pay neither “High” or                         3                      5.88%                  Not Obtained                                      Not Obtained
“Low” Rate
                                                 51                        100%                     Not Obtained                             Not Obtained
Total: (68.9% of total
respondents) 4
3
  There were a total of 74 responders to the survey questionnaire. However, 23 are not included in the calculations above because:
        16 (21.6% of total respondents) did not respond or could not provide either the rate or the frequency that the rate was paid
        7 (9.5% of total respondents) did not cover this item for rental reimbursement.




                                                                     )))))))))))
                                                                          C-3
                                     APPENDIX D


                         Duration of Hospital Bed Rental
                           by Medicare Beneficiaries 1
                 Percent        Percent Renting      Percent                            Total Percentage
                 Renting           Manual-           Renting        Percent Renting     of Beneficiaries
    Rental     Semi Electric      Adjustable         Manual          Total-Electric         Renting
    Month      Hospital Beds     Hospital Beds     Hospital Beds     Hospital Beds       Hospital Beds

      1               77.28%              16.17%           4.20%              2.35%              100.00%

      2               50.51%              10.16%           2.75%              1.25%               64.67%

      3               41.16%               8.53%           2.26%              0.23%               52.18%

      4               35.07%               7.39%           1.93%              0.18%               44.57%

      5               30.83%               6.60%           1.68%              0.10%               39.21%

      6               27.48%               5.96%           1.49%              0.07%               35.00%

      7               24.81%               5.43%           1.34%              0.06%               31.64%

      8               22.65%               5.01%           1.21%              0.06%               28.93%

      9               20.76%               4.62%           1.10%              0.07%               26.55%

     10               18.79%               4.21%           0.99%              0.06%               24.05%

     11               16.93%               3.81%           0.86%              0.06%               21.66%

     12               15.25%               3.42%           0.77%              0.04%               19.48%

     13               13.65%               3.06%           0.68%              0.05%               17.44%

     14               10.52%               2.54%           0.53%              0.05%               13.64%

     15                9.16%               2.21%           0.46%              0.02%               11.85%
1
    Source: Statistical Analysis Durable Medical Equipment Regional Carrier (SADMERC) based on 1996
    Payment data




                                             )))))))))))
                                                 D - 1

    APPENDIX E


CALCULATION OF SAVINGS





       )))))))))))
           E - 1

                             BREAKOUT OF DMERC 1996 ALLOWED CHARGES FOR THE HOSPITAL BED CODES SURVEYED
                                  DMERC     Total Allowed Charges   Total Allowed Charges  Total Allowed Charges                             Total Allowed Charges
                           Allowed Charges      for Rentals of only    for Rentals of Only    for Rentals of Only                                     for Rentals of
Procedure Code                     for 1996     1 Month Duration       2 Months Duration      3 Months Duration                              4 - 15 Months Duration
E0250                           $7,085,989             $2,437,580                $836,147               $559,793                                         $3,252,469
E0255                          $30,720,446            $11,428,006              $3,102,765             $2,150,431                                       $14,039,244
E0260                         $233,607,390            $80,828,157             $28,266,494            $18,454,984                                      $106,057,755
E0265                           $1,084,068               $576,724                $106,239                $82,389                                           $318,716
Total                         $272,497,893            $95,270,467             $32,311,645            $21,247,597                                      $123,668,184

                                                    Estimated Savings if Rental Rates are Reduced by 12 Percent
                                     DMERC             Allowed Charges                Annual Savings       Five Year Savings Projection
                            Allowed Charges                  If Reduced                in 1996 Dollars                     in 1996 Dollars
Procedure Code                        for 1996            by 12 percent      (Not Indexed to Inflation)        (Not Indexed to Inflation)
E0250                             $7,085,989                 $6,235,670                       $850,319                          $4,251,595
E0255                            $30,720,446                $27,033,992                     $3,686,454                         $18,432,270
E0260                           $233,607,390               $205,574,503                    $28,032,887                       $140,164,435
E0265                             $1,084,068                    $953,980                      $130,088                            $650,440
Total                           $272,497,893               $239,798,145                    $32,699,748                       $163,498,740
1
  Savings estimates are based upon total DMERC Allowed Charges for January 1 - December 31, 1996 and are not indexed for inflation.

                                                   Estimated Savings if Rental Rates are Reduced by 15 Percent 1
                                     DMERC             Allowed Charges                Annual Savings       Five Year Savings Projection
                            Allowed Charges                  If Reduced                in 1996 Dollars                     in 1996 Dollars
Procedure Code                        for 1996            by 15 Percent      (Not Indexed to Inflation)        (Not Indexed to Inflation)
E0250                             $7,085,989                 $6,023,091                     $1,062,898                          $5,314,490
E0255                            $30,720,446                $26,112,380                     $4,608,066                         $23,040,330
E0260                           $233,607,390               $198,566,280                    $35,041,110                       $175,205,550
E0265                             $1,084,068                    $921,458                      $162,610                            $813,050
Total                           $272,497,893               $231,623,209                    $40,874,684                       $204,373,420
1
  Savings estimates are based upon total DMERC Allowed Charges for January 1 - December 31, 1996 and are not indexed for inflation.




                                                                            )))))))))))
                                                                                  E-2
APPENDIX F


AGENCY COMMENTS





    )))))))))))
        F - 1

)))))))))))
    F - 2

)))))))))))
    F - 3

